    DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Office of Inspector General

                                                                               Region IX
                                                                               Office of Audit Services
                                                                                      h
                                                                               90 - i Street, Suite 3-650
                                                                               San Francisco, CA 94103

JA!I 2 2 2009


Report Number: A-09-08-00051

Mr. William Streur
Deputy Commissioner
Department of Health and Social Services
Division of Health Care Services
4501 Business Park Boulevard
Anchorage, Alaska 99503-7167

Dear Mr. Streur:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Follow-Up Audit of the Medicaid Drug Rebate Program in
Alaska." We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final detennination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional infonnation that you believe may have a
bearing on the final detennination.

Pursuant to the principles of the Freedom ofInfonnation Act, 5 U.S.c. § 552, as amended by
Public Law 104-231, OIG reports generally are made available to the public to the extent the
infonnation is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact Doug Preussler, Audit Manager, at (415) 437-8360 or through e-mail
at Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-08-00051 in all
correspondence.

                                             Sincerely,



                                             Lori A. Ahlstrand
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Mr. William Streur


Direct Reply to HHS Action Official:

Ms. Jackie Gamer, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





   FOLLOW· UP AUDIT OF THE

    MEDICAID DRUG REBATE

     PROGRAM IN ALASKA





                    Daniel R. Levinson

                     Inspector General


                      January 2009

                      A·09·0S·00051

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of GAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND


The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act (the Act). For a manufacturer's covered outpatient drugs to be eligible for
Federal Medicaid funding under the program, the manufacturer must enter into a rebate
agreement with the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates
to the States. CMS, the States, and drug manufacturers each undertake certain functions in
connection with the drug rebate program. In Alaska, the Department of Health and Social
Services (the State agency) administers the Medicaid drug rebate program.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R, "Medicaid Drug Rebate
Schedule."

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia (A-06-03-00048). Those audits found that only four
States had no weaknesses in accountability for and internal controls over their drug rebate
programs. As a result of the weaknesses, we concluded that States lacked adequate assurance
that all ofthe drug rebates due to the States were properly recorded and collected. Additionally,
CMS did not have reliable information from the States to properly monitor the drug rebate
program.

In our previous audit of the Alaska drug rebate program, we determined that the State agency
had not established adequate policies, procedures, and internal controls over the Medicaid drug
rebate program (A-10-03-00006). Specifically, we identified weaknesses in the following areas:
(1) quarterly reporting, (2) accounts receivable system, (3) segregation of duties, (4) interest
accrual and collection, and (5) dispute resolution. We recommended that the State agency
correct the reported balance of uncollected rebates to accurately reflect the State agency's drug
rebate activity and ending balance. In addition, we recommended that the State agency establish
policies, procedures, and internal controls to:

   e	   reconcile the ending balance of uncollected rebates to the State agency's

        supporting receivable account, and ensure the accuracy of the data reported to

        CMS;


   "	 create a general ledger accounts receivable control account and a sufficiently

      detailed subsidiary accounts receivable system;


   e	   provide for the proper segregation of duties within and between the rebate billing,
        collection, and accounting functions;
    ~	   calculate simple interest on disputed, late, and unpaid rebate payments, and verify
         the accuracy of interest payments received; and

    •	 make use of the State hearing mechanism when appropriate.

The State agency generally concurred with our findings and recommendations but expressed
concerns regarding the use of the State hearing mechanism.

This current review of Alaska is part of a nationwide series of reviews conducted to determine
whether States have addressed the weaknesses in accountability for and internal controls over
their drug rebate programs found in the previous reviews. Additionally, because the Deficit
Reduction Act of 2005 required States as of January 2006 to begin collecting rebates on single
source drugs administered by physicians, this series of reviews will also determine whether
States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Alaska drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

SUMMARY OF FINDINGS

Regarding the first objective, the State agency implemented the recommendations from our prior
audit that related to segregation of duties and dispute resolution. The State agency did not
implement the recommendation related to quarterly reporting. The State agency partly
implemented the recommendations related to the accounts receivable system and interest accrual
and collection.

   •	 Quarterly Reporting. The State agency has continued to report inaccurate amounts to
      CMS on the quarterly Form CMS-64.9R. These amounts do not reconcile to its
      subsidiary ledger system.

   4D    Accounts Receivable System. The State agency did not create a sufficiently detailed
         subsidiary accounts receivable system to track drug rebate activity before
         October 1,2003, byNDC.

   4D    Interest Accrual and Collection. The State agency accounted for interest due on
         disputed, late, and unpaid rebate payments. However, it did not verify the accuracy of
         interest collections received. As a result, the State agency could not assure that it
         collected all of the interest owed on disputed, late, and unpaid balances.

Regarding the second objective, the State agency established controls over collecting rebates on
single source drugs administered by physicians.




                                                 11
RECOMMENDATIONS

We recommend that the State agency implement policies, procedures, and internal controls to:

   e	   ensure the accuracy of Form CMS-64.9R by reconciling the reported amounts to

        its subsidiary ledger system;


   e	   create a sufficiently detailed subsidiary accounts receivable system to track drug rebate
        activity before October 1, 2003, by NDC; and

   •	 verify the accuracy of interest collections received.

STATE AGENCY COMMENTS

In comments on the draft report (included as the Appendix), the State agency concurred with the
recommendations related to quarterly reporting and interest accrual and collection. However, the
State agency did not concur with the recommendation related to the accounts receivable system,
stating that the recommendation could not be implemented. The State agency commented that,
prior to October 1,2003, its Medicaid Management Information System was not programmed
with enough detail to account for drug rebate funds at the NDC level. The State agency
indicated that, in its opinion, the outstanding balances from first quarter 1991 through third
quarter 2003 should be written off as uncollectible because the balances are not available at the
NDC level.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that the State agency create a sufficiently detailed subsidiary
accounts receivable system to track drug rebate activity before October 1,2003, by NDC, unless
CMS agrees that these outstanding balances are uncollectible and can be written off.




                                                 111
                               TABLE OF CONTENTS



INTRODUCTION                                       1


  BACKGROUND                                       1

    Drug Rebate Program                            1

    Physician-Administered Drugs                   1

    Prior Office ofInspector General Reports       2

    Alaska Drug Rebate Program                     3


  OBJECTIVES, SCOPE, AND METHODOLOGy               3

    Objectives                                     3

    Scope                                          3

    Methodology                                    4


FINDINGS AND RECOMMENDATIONS                       4


  IMPLEMENTATION OF PRIOR RECOMMENDATIONS          5

    Federal Regulations                            5

    Quarterly Reporting                            5

    Accounts Receivable System                     5

    Interest Accrual and Collection                6


  PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS       6


  RECOMMENDATIONS                                  6


  STATE AGENCY COMMENTS                            7


  OFFICE OF INSPECTOR GENERAL RESPONSE             7


APPENDIX

  STATE AGENCY COMMENTS




                                          IV
                                             INTRODUCTION


BACKGROUND


Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer's covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In Alaska, the Department of Health and Social
Services (the State agency) is responsible for the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug's average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R, "Medicaid Drug Rebate
Schedule." This is part of Form CMS-64, "Quarterly Medicaid Statement of Expenditures for
the Medical Assistance Program," which summarizes actual Medicaid expenditures for each
quarter and is used by CMS to reimburse States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of2005 (DRA) amends section 1927 of the Act and
requires States, as of January 1,2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as "brand name drugs" and do not have generic equivalents.


IThis provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January 1, 2008.


                                                        1
In Alaska, physician-administered drugs are billed to the State Medicaid program on either a
physician claim form or an outpatient hospital claim form. Before April 1, 2008,
physician-administered drugs were billed on the claim forms using procedure codes that are part
of the Healthcare Common Procedure Coding System. The procedure code identifies a drug by
its active ingredient(s) and identifies the number of drug units (billing units) allowed per
reimbursement for that procedure code. Because rebates are calculated and paid based on NDCs,
each procedure code must be converted to an NDe. Additionally, the billing units for a
procedure code may differ from the units used for rebate purposes (e.g., grams versus liters).
Therefore, to determine rebates, a crosswalk is needed to convert procedure codes into NDCs for
single source drugs and to convert procedure code billing units into equivalent NDC billing
units.

Effective April 1, 2008, the State agency required claim forms to include the NDCs and NDC
billing units for all physician-administered drugs.

Prior Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Alaska drug rebate program, we determined that the State agency
had not established adequate policies, procedures, and internal controls over the Medicaid drug
rebate program. 3 Specifically, we identified weaknesses in the following areas: (1) quarterly
reporting, (2) accounts receivable system, (3) segregation of duties, (4) interest accrual and
collection, and (5) dispute resolution. We recommended that the State agency correct the
reported balance of uncollected rebates to accurately reflect the State agency's drug rebate
activity and ending balance. In addition, we recommended that the State agency establish
policies, procedures, and internal controls to:

    •	 reconcile the ending balance of uncollected rebates to the State agency's

       supporting receivable account, and ensure the accuracy of the data reported to

       CMS;


    •	 create a general ledger accounts receivable control account and a sufficiently

       detailed subsidiary accounts receivable system;


    *	   provide for the proper segregation of duties within and between the rebate billing,
         collection, and accounting functions;

2"Multistate Review of Medicaid Drug Rebate Programs" (A-06-03-00048), issued July 6,2005; Arizona was not
included because it did not operate a drug rebate program.

3"Audit of Medicaid Drug Rebate Program in Alaska" (A-IO-03-00006), issued July 23,2003.


                                                      2

    @I   calculate simple interest on disputed, late, and unpaid rebate payments, and verify
         the accuracy of interest payments received; and

    @I   make use of the State hearing mechanism when appropriate.

The State agency generally concurred with our findings and recommendations but expressed
concerns regarding the use of the State hearing mechanism.

Alaska Drug Rebate Program

The State agency contracted with its fiscal agent, First Health Services Corporation, to perform
all drug rebate program functions other than receiving rebate funds and quarterly reporting. The
fiscal agent's responsibilities included preparing and mailing invoices to manufacturers,
managing dispute resolution procedures, and accounting for rebates on single source drugs
administered by physicians. Before April 1, 2008, the fiscal agent also converted procedure
codes into NDCs for single source drugs and converted procedure code billing units into
equivalent NDC billing units.

The State agency reported an outstanding drug rebate balance of$21,947,886 on the
June 30, 2006, Form CMS-64.9R. For the fiscal year ended June 30, 2006, the State agency
reported rebate billings of approximately $32.8 million and collections of approximately
$32.0 million.

This current review of the Alaska drug rebate program is part of a nationwide series of reviews
conducted to determine whether States have addressed the weaknesses in accountability for and
internal controls over their drug rebate programs found in the previous reviews. Additionally,
because the DRA required States as of January 2006 to begin collecting rebates on single source
drugs administered by physicians, this series of reviews will also determine whether States have
complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Alaska drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

Scope

We reviewed the State agency's current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on Form CMS-64.9R as of June 30, 2006.

We performed our fieldwork at the State agency in Anchorage, Alaska, in August and
September 2008.



                                                  3

Methodology

To accomplish our objectives, we

   @I   reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
        State Medicaid directors, and other information pertaining to the Medicaid drug rebate
        program;

   ..	 reviewed the policies and procedures related to the fiscal agent's drug rebate accounts
       receivable system;

   ..	 interviewed State agency officials and fiscal agent staff to determine the policies,

       procedures, and controls that related to the Medicaid drug rebate program;


   •	 reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006;

   •	 reviewed supporting documentation for rebates invoiced, adjustments, and rebate and
      interest payments received for the quarter ended June 30, 2006;

   •	 interviewed fiscal agent staff to determine the processes used in converting physician
      services claims data into drug rebate data related to single source drugs administered by
      physicians; and

   ..	 reviewed rebate listings of billings and reimbursements for procedure codes related to
       single source drugs administered by physicians for the period January 1 through
       June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Regarding the first objective, the State agency implemented the recommendations from our prior
audit that related to segregation of duties and dispute resolution. The State agency did not
implement the recommendation related to quarterly reporting. The State agency partly
implemented the recommendations related to the accounts receivable system and interest accrual
and collection.

   •	 Quarterly Reporting. The State agency has continued to report inaccurate amounts to
      CMS on the quarterly Form CMS-64.9R. These amounts do not reconcile to its
      subsidiary ledger system.




                                                 4

    @	   Accounts Receivable System. The State agency did not create a sufficiently detailed
         subsidiary accounts receivable system to track drug rebate activity before
         October 1, 2003, byNDC.

    G&   Interest Accrual and Collection. The State agency accounted for interest due on
         disputed, late, and unpaid rebate payments. However, it did not verify the accuracy of
         interest collections received. As a result, the State agency could not assure that it
         collected all of the interest owed on disputed, late, and unpaid balances.

Regarding the second objective, the State agency established controls over collecting rebates on
single source drugs administered by physicians.

IMPLEMENTATION OF PRIOR RECOMMENDATIONS

Federal Regulations

Pursuant to 42 CFR § 433.32(a), States are required to "[m]aintain an accounting system and
supporting fiscal records to assure that claims for Federal funds are in accord with applicable
Federal requirements."

Quarterly Reporting

In our prior audit, we determined that the State agency understated by $3.3 million the
June 30,2002, balance of uncollected rebates reported to CMS. The understatement was due in
part to the State agency not reconciling its CMS quarterly reports to its subsidiary ledger system.
Without the proper reconciliation, the State agency omitted prior quarter adjustments and
incorrectly reported quarterly Form CMS-64.9R ending balances.

Since our prior audit, the State agency has continued to report inaccurate amounts related to its
drug rebate activity and ending balances on Form CMS-64.9R. Our review of quarterly Form
CMS-64.9Rs for the period July 1, 2005, through June 30,2006, revealed discrepancies with the
State agency's subsidiary ledger system. For example, for the quarter ended March 31,2006,
line 2 ("Adjustments To Previously Reported Rebates From Drug Labelers Included In Line 1"),
column (F), of Form CMS-64.9R erroneously showed a positive amount of$21,159,518,
whereas the subsidiary ledger showed a negative amount of$418,249. For the quarter ended
June 30, 2006, line 2 showed a positive amount of $576,025, whereas the subsidiary ledger
showed a negative amount of$576,025. These deficiencies, as well as other clerical errors, were
caused by the State agency's lack of written policies and procedures for preparing Form
CMS-64.9R and reconciling the reported amounts to its subsidiary ledger system.

Accounts Receivable System

In our prior audit, we determined that the State agency did not maintain its subsidiary accounts
receivable system at a sufficiently detailed level to accurately account for drug rebate activity.




                                                  5

Since our prior audit, the State agency still has not created a sufficiently detailed subsidiary
accounts receivable system to track drug rebate activity for drug rebate balances before
October 1,2003. Although the subsidiary accounts receivable system tracked drug rebate
activity beginning October 1,2003, and for later periods by NDC, the system tracked activity
before October 1, 2003, only by quarter and year for each manufacturer.

Interest Accrual and Collection

In our prior audit, we determined that the State agency did not have adequate controls in place to
accurately account for interest due on disputed, late, and unpaid rebate payments nor to ensure
that interest collections received from manufacturers were accurate.

Since our prior audit, the State agency has accounted for interest due on disputed, late, and
unpaid rebate payments. However, as of the end of our fieldwork, the State agency still had not
implemented a procedure to verify the accuracy of interest collections received from
manufacturers.

Section (V)(b) of the rebate agreement between CMS and manufacturers requires manufacturers
to pay interest on late rebate payments, and CMS program release 29 requires interest to be
collected. 4 Neither the State agency nor its fiscal agent verified the accuracy of interest
payments received from manufacturers. The fiscal agent believed that it was the manufacturers'
responsibility to accurately calculate and pay the interest owed. However, without verification
that interest paid by manufacturers was accurate, the State agency could not assure that it
collected all of the interest owed on disputed, late, and unpaid balances.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. For the procedure codes on the crosswalk,
the State agency paid $523,874 in claims for physician-administered drugs from January through
June 2006 and billed manufacturers for rebates totaling $190,681.

RECOMMENDATIONS

We recommend that the State agency implement policies, procedures, and internal controls to:

    e	   ensure the accuracy of Form CMS-64.9R by reconciling the reported amounts to

         its subsidiary ledger system;


    •	 create a sufficiently detailed subsidiary accounts receivable system to track drug rebate
       activity before October 1, 2003, by NDC; and

    e	   verify the accuracy of interest collections received.

4CMS has issued guidance to State Medicaid directors pertaining to the drug rebate program and posts the program
releases on its Web site at http://www.crns.hhs.govlMedicaidDrugRebateProgram/02 StateReleases.asp. Accessed
September 25,2008.


                                                        6
STATE AGENCY COMMENTS

In comments on the draft report (included as the Appendix), the State agency concurred with the
recommendations related to quarterly reporting and interest accrual and collection. However, the
State agency did not concur with the recommendation related to the accounts receivable system,
stating that the recommendation could not be implemented. The State agency commented that,
prior to October 1, 2003, its Medicaid Management Information System was not programmed
with enough detail to account for drug rebate funds at the NDC level. The State agency
indicated that, in its opinion, the outstanding balances from first quarter 1991 through third
quarter 2003 should be written off as uncollectible because the balances are not available at the
NDC level.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that the State agency create a sufficiently detailed subsidiary
accounts receivable system to track drug rebate activity before October 1, 2003, by NDC, unless
CMS agrees that these outstanding balances are uncollectible and can be written off.




                                                7

APPENDIX

                                                                                                          APPENDIX

                                                                                                           Page 10f2





                                                                        SARAH PALIN, GOVERNOR

                                                                        4501 Business Park Blvd
                                                                        Suite 24, Building L
    DEPT. OF HEALTH AND SOCIAL SERVICES                                 ANCHORAGf, ALASKA 99503-7167
                    DIVISION OF HEALTH CARE SERVICES	                   PHONE: (907) :334-2400
                                                                        FAX:   (907) 561-1684



December 23,2008


Ms. Lori A. Ahlstrand
Regional Inspector General for Audit Services
Region IX
Office of Audit Services
90 - 71ll Street, Suite 3-650
San Francisco, CA 94103

Re: Report Number A-09-08-00051

Dear Ms. Ahlstrand,

The Department of Health and Social Services, Division of Health Care Services, offers the following
comments to the Office of Inspector General report dated November 24,2008 on the Alaska Drug Rebate
program:

Quarterly Reporting

The Department concurs with the Office of the Inspector General on this fmding. It made the $20 million
correction (see pg. 5) on the QE 9-30-08 CMS 64.9R and footnoted it. The Budget and Revenue sections
of the Department of Health and Social Services will work with the Division of Health Care Services to
create written policies and procedures after fiscal reporting changes with the drug rebate fiscal agent
(First Health Services Corporation) have been established. These changes will permit improved and
timelier financial drug rebate reconciliations between the State and its fiscal agent.

Accounts Receivable System

The Department does not concur with the Office of the lrispector General on this finding. Since the
balances prior to 10/1/2003 were not tracked by National Drug Code (NDC) level. this request is not a
solution that can be implemented. It is our opinion that the CMS threshold for balances from IQl991
through 3Q2003 with reason of "uncollectible because balances are not at NDC level as required by
CMS" be applied to this timeframe. The drug rebate fiscal agent can accomplish this task.
The current Accounts Receivable system works very well and sufficiently details all invoiced, received
and disputed money at the NDC level. However, prior to October 1, 2003 the State of Alaska Medicaid
Management Information System (MMIS) was not programmed with enough detail to account for funds
at the NDC level. In addition, at the time of its design and implementation it may not have been cost
effective to program the current MMIS at such a highly detailed leveL The new Drug Rebate system
(First Rebate) that was implemented on October I, 2003 is not a mainframe system and was implemented
with reasonable cost considerations.

Interest Accrual and Collection
The Department concurs with the Office of the Inspector General on this finding. Until the June 2008
release ofthe Datil guide that replaced the CMS Operational Manual, CMS had the interest calculation in
                                                                                                                     APPENDIX

                                                                                                                      Page 2 of2





        Lori A. Ahlstrand                            Page 2                                    12/23/2008



        the ownership of the manufacturers. States were required to track the interest, This is done by estimating
        the calculation for manufacturer delivery. Through our fiscal agent, we are now in compliance with the
        CMS guidelines on the calculation of interest but it is not applied daily, It is applied on a quarterly
        cycle. Until CMS releases a more substantial program wide mandate, our fiscal agent, FHSC, will
        continue to track interest as it does today.

        If you have any questions concerning these comments, please contact me at the above address.



                                                                                  Sincerely,        'J.

                                                                                 #/Z~~~fl:V-<A<4tu
                                                                                 William Streur
                                                                                 Deputy Commissioner



        Cc:




Office of Inspector General Note: Names and titles shown in the State agency's comments
have been redacted to safeguard against the release of personally identifiable information.
